                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A-I0030019                                                                     Page 1 of 1



         We reviewed an allegation of plagiarism.1 The allegation focused on the Subjects' NSF
         Collaborative ProposaL 2

         In our evaluation, we analyzed the Collaborative Proposal in question as well as proposals.
         submitted by subject 13 and subject 24 within the past 4 years. Our results showed insufficient
         evidence to proceed with this case.

         This case is closed and no further action will be taken.




NSF orG Form 2 (11102)
